CERTIFICATE OF SERVICE
I certify that on this 1st day of June, 2021, a copy of the foregoing Petition for
Writ of Certiorari was served via email upon the following:
Bradley K. Shafer
Mintzer Sarowitz Zeris Ledva & Meyers
48 Fourteenth Street, Suite 200
Wheeling, WV 26003
bshafer@defensecounsel.com
Counsel for Defendants D & M Tours and Jose Roman
Jeffrey S. Moeller
Hunter S. Havens
Seeley Savidge Ebert & Gourash Co., LPA
26600 Detroit Road, Suite 300
Westlake, OH 44145
jmoeller@sseg-law.com
hhavens@sseg-law.com
Counsel for Defendants William Stauffer
and Fedex Corporation
Edward T. Saadi
Edward T. Saadi, LLC
As Special Counsel for the Ohio Attorney General
970 Windham Court, Suite 7
Boardman, OH 44512
EdwardSaadi@aol.com
Counsel for Plaintiff Stephanie B. McCloud,
Administrator Ohio Bureau of Workers
Compensation originally named as Sarah Morrison
and sent by U.S. Mail to:
Clerk, Supreme Court of the U.S.
1 First Street, NE,
Washington, DC 20543
/s/ Irene K. Makridis
Irene K Makridis, 314320
Counsel for Petitioner
Walter P. Vargo, Jr.

